SEMIANNUAL REPORT TO THE CONGRESS
     OFFICE OF THE INSPECTOR GENERAL
         October 1, 2006 - March 31, 2007
                                       INSPECTOR GENERAL
 COUNSEL TO THE IG                                                            ASSISTANT TO THE IG
 Judith K. Leader                      Karl W. Schornagel                     Kathleen L. O’Neal
   (Part-Time)                         CPA




                        ASSISTANT INSPECTOR                                         ASSISTANT INSPECTOR
                        GENERAL FOR AUDITS                                          GENERAL FOR
                        (ACTING)                                                    INVESTIGATIONS
                        Nicholas G. Christopher                                     Kenneth R. Keeler
                        Esq., CPA




  SENIOR AUDITOR              SENIOR AUDITOR                SENIOR AUDITOR                  SPECIAL AGENT
    John W. Kane            Patrick J. Cunningham           Judy M. Fischer                 Pamela D. Hawe
                            CIA                             CISA, CIA                         (Part-Time)




  SENIOR AUDITOR                  AUDITOR                    IT SPECIALIST                   INVESTIGATOR
    John R. Mech               Cornelia E. Jones                Vacant                      Barbara A. Hennix
    CPA




      AUDITOR                     AUDITOR                      AUDITOR                       INVESTIGATOR
  Sherry D. Angwafo           Mary A. Harmison                  Vacant                           Vacant
  Esq.                        CPA                                                              (Part-Time)




                                                               AUDITOR                  MANAGEMENT ANALYST
                                                                Vacant                    Michael R. Peters




Cover: The Thomas Jefferson Building
 April 30, 2007


A Message From the Inspector General

I am pleased to present our Semiannual Report to the Congress for the period ended March 31, 2007.


In the last six months we prepared reports on the acquisition of collections, human resources policies, the National Digital
Information Infrastructure and Preservation Program’s (NDIIPP) oversight of grants, fiscal year (FY) 2006 Library-wide
and Madison Council Fund financial statements, our peer review of the National Endowment for the Arts Office of the
Inspector General, and researcher access to the Library’s general collections. We also assisted in the preparation of analyses
for the replacement of a Library financial system, and consulted on the Library’s response to a Government Accountability
Office report on the National Library Service for the Blind and Physically Handicapped. Finally, we conducted several
investigations and proactive reviews on topics ranging from thefts of Library property to conflicts of interest on financial
disclosures.


Also in the last six months, we completely rewrote our Library of Congress Regulation, Functions, Authority, and Responsibility
of the Inspector General. This rewrite, reflecting our new authority to operate and expanded duties and responsibilities, was
necessitated by the passage of the Library of Congress Inspector General Act of 2005, Public Law 109-55 in August 2005.
The regulation was published on December 4, 2006.


In the next six months, we will report on in-progress reviews of the Library’s facilities and design operations, travel program,
disbursement operations, contracting operations, compliance by the NDIIPP grantees with grant terms and conditions,
and the Open World Leadership Center’s FY 2006 financial statements.


The Federal Trade Commission OIG performed a peer review of our audit operations this year. I am pleased to report that
our office received an unqualified opinion with no management letter comment.


We welcome the Library’s Chief Operating Officer, Jo Ann Jenkins, to her new position and appreciate the support and
cooperation extended to our staff.




Karl W. Schornagel
Inspector General
Table of Contents

  Introduction...................................................................................................................................................... 1

  Audits................................................................................................................................................................... 3
                 Collections Acquisition Strategy................................................................................................. 3
             Human Resources Policies...........................................................................................................                          3
             National Digital Information Infrastructure and Preservation Program.............................                                                            4
             Library of Congress Financial Statements................................................................................                                     5
             James Madison Fund Financial Statements...............................................................................                                       7
             Peer Review of the National Endowment for the Arts OIG ...............................................                                                       7
  Investigations....................................................................................................................................................      8
             Significant Criminal and Administrative Investigations...........................................................                                            9
                     OIG Law Enforcement Authority Challenged......................................................................... 12
  Follow-Up on Prior Period Recommendations......................................................................................... 13

  Unimplemented Recommendations................................................................................................................ 14

  Implemented Recommendations..................................................................................................................... 15

  Funds Questioned or Put to Better Use.................................................................................................... 18

  Instances Where Information or Assistance Requests Were Refused................................................ 19

  Status of Recommendations Without Management Decisions.............................................................. 19

  Significant Revised Management Decisions.............................................................................................. 19

  Significant Management Decisions With Which OIG Disagrees......................................................... 19

  Other Activities................................................................................................................................................ 20
            Participation in the ECIE............................................................................................................. 20
            Peer Review of the Library’s OIG............................................................................................... 20
                     Legislative Branch OIG “Council”............................................................................................. 20
                     Digital Talking Book Project....................................................................................................... 20
                     Researcher Access to Collections................................................................................................ 21
                     FEDLINK System Replacement Project .................................................................................. 21
            Center for Research Libraries Project ........................................................................................ 22
  Review of Legislation and Regulations..................................................................................................... 23
Introduction

The mission of the Office of the Inspector General is to promote economy,
efficiency, and effectiveness by detecting and preventing waste, fraud, and
abuse.

To accomplish our mission, we conduct audits and investigations. Our goals, objectives, strategies, and performance
indicators can be found in our Strategic Plan, available on our Web site at http://www.loc.gov/about/oig.


In addition to conducting audits and investigations, we lend our expertise on a consulting basis to many Library offices
and external organizations.


Our philosophy is to be proactive rather than audit “after the fact.” We believe this approach results in a more efficient use
of resources by detecting and preventing problems early. Accordingly, we are following several key projects throughout the
Library and rendering assistance and making recommendations as needed.


Our staff is educated and certified in various disciplines. We are, collectively, four certified public accountants, three
attorneys, two certified internal auditors, one certified information systems auditor, two special agents, one investigator,
one Master of Library Science, and other highly qualified staff.




                                                                                      Semiannual Report to the Congress          1
              Second level of the Great Hall, Thomas Jefferson Building




2   Semiannual Report to the Congress
Audits
Collections Acquisition Strategy                         the collections policy more frequently.

Audit Report No. 2006-PA-104                             • The Library Has Begun Establishing the Framework
December 2006                                            for a Transformation to the Digital Age – The
                                                         Library has taken the necessary steps for successful
More than seven thousand items are added to              transition to the digital environment. However,
the Library’s collections every day, requiring the       we found that as a matter of policy, the Library is
investment of significant logistical and financial       acquiring as much analog material as it did before
resources in order to acquire, process, store, and       the growth of digital media. We recommended that
preserve these items. We performed an audit of the       the Library examine the amount it is spending on
acquisition process to determine whether the Library     electronic resources in relation to other research
is efficiently and effectively acquiring materials       libraries and reevaluate whether it is successfully
that meet researchers’ needs, and whether it is          serving its patrons; consider creating a full-time
considering the logistical issues of its acquisitions.   digital subscription manager; and reevaluate its
Because of increasingly severe space and budget          policy of maintaining both analog and digital copies
considerations, we concluded that the Library            of the same material.
should be more selective in both the quantity and
usefulness of materials it acquires.                     In its response, the Library noted that
                                                         recommendations from the audit implicate
• The Library Should Explore Strategies to Reduce        fundamental questions regarding the Library’s basic
the Quantity of Materials it Collects – The Library      mission and core values, but agreed to re-evaluate
is unable to keep up with the inflow of materials,       collections acquisition policies and methodologies.
resulting in a six- to twelve-month delay between
acquisition and availability, books overflowing in       Human Resources Policies
the stacks, preservation backlogs, and a new $20
million storage module needed every four years.          Attestation Report No. 2005-AT-902
We recommended that the Library explore not              March 2007
collecting certain materials; collaborating with
other institutions to act as “trusted repositories;”     In 2004, it gradually became apparent that Library
and adding only one, rather than multiple, copies        employees were so dissatisfied with Library personnel
of an item to the general collections.                   policies and practices that they were looking
                                                         outside of the organization for help. Not only were
• The Library Should Focus its Collection Strategy       employees filing complaints on our hotline, they
– The Library has conducted reviews to evaluate the      were also seeking outside support from members of
relevance of the materials it collects, but only on a    Congress.
decentralized and inconsistent basis. By not taking
into account the changing environment and needs          We undertook this project to determine the reasons
of its patrons, the Library risks expending resources    for the dissatisfaction. To probe for the underlying
to acquire materials that may not meet researchers’      cause of the employee dissatisfaction, we established
most critical needs. We recommended establishing
                                                         two audit objectives: (1) Is there a communication
a methodology to determine which materials are
                                                         breakdown between management and staff and (2)
more useful to researchers; more effectively using
                                                         Is the Library following best practices in federal
loan records and vendors’ records of access to
                                                         personnel management?
electronic databases or subscriptions; and reviewing


                                                                      Semiannual Report to the Congress          3
      We concluded that the organizational culture at the Library     staff are informed about the potential consequences of their
      inhibits communication between management and staff.            actions and a consistent, defensible result is achieved.
      Information is either disseminated on a need-to-know basis
      or presented in such a complex way that the message is lost.    • The Library Should Establish Employee and Supervisor
      Our major findings and recommendations are as follows:          Manuals – We found that information about the Library’s
                                                                      personnel policies and regulations was difficult to find. We
      • The Library Should Make Its Personnel Policies More           recommended that the Library prepare and promulgate
      Accessible – The Office of General Counsel has posted           both an employee and a supervisor manual to help guide
      union contracts and personnel policies on the staff intranet,   both in determining what Library policy is on various
      yet there is no easy way to search these documents.             personnel matters.
      Employees should be able to use keyword searches to find
      answers to common questions on issues like sick leave. We       The Library generally agreed with most of our
      recommended that the Office of Human Resources Services         recommendations and is currently making a management
      build a subject index such as the one found on the Office of    decision about external hearings and a table of penalties.
      Personnel Management’s web site.
                                                                      National Digital Information
                                                                      Infrastructure and Preservation Program
      • The Library Should Update its Personnel Policies and
      Better Communicate with Staff – The Office of General           Audit Report No. 2006-PA-105
      Counsel and the Office of Human Resources Services are          March 2007
      working together to update old personnel policies – yet 43
      percent of them are at least six years overdue for revision.    The Library’s National Digital Information Infrastructure
                                                                      and Preservation Program (NDIIPP) was created by
      We recommended that the Office of Human Resources
                                                                      special legislation in December 2000 in recognition of
      Services let employees know which regulations are being
                                                                      the importance of preserving digital content for future
      revised, are under review by the Executive Committee, or
                                                                      generations. The goal of the program is to develop a
      are being negotiated with the Library’s labor unions.
                                                                      national strategy to collect, archive, and preserve the
                                                                      growing amounts of digital content for current and future
      • The Library Should Follow Best Practices with Respect to
                                                                      generations.
      External Hearings – Notwithstanding an external hearing
      process for certain adverse actions, the Librarian can
                                                                      To this end, the NDIIPP created a collaborative program
      override the external process and make the final decision.
                                                                      that combines resources from government and educational
      We recommended that he permit the Government
                                                                      institutions and private partners. The collaborative effort
      Accountability Office’s Personnel Appeals Board to make
                                                                      is intended to result in strategies for collecting and storing
      binding decisions on Library cases that it hears.               “born-digital” materials.

      • The Library Should Establish a Table of Penalties – The       In September 2004, the Library awarded cooperative
      Library does not post or share with its managers the            agreements to eight lead institutions (the “partners”).
      penalty criteria it uses to determine how to deal with          The purpose of the agreements is to identify, collect, and
      misconduct. We recommended that the Library publish             preserve historically important digital materials within a
      a table of penalties, thus following best practices in the      nationwide digital preservation infrastructure.
      federal government, which indicate that part of a complete
      system of personnel policies is a table indicating a range of   We performed an audit of four of the eight cooperative
      penalties for misconduct. In this way, both managers and        agreements. Our objectives were to determine whether


4   Semiannual Report to the Congress
the NDIIPP partners are administering their cooperative        However, their evaluation of those controls disclosed no
agreements according to their terms, conditions, and           matters involving internal controls and their operations
applicable laws and regulations; and whether the Library is    that they considered to be material weaknesses.
providing adequate oversight for the program. Overall, we
found that both the partners and the Library are adequately    In prior years, the auditors reported on weaknesses
administering the NDIIPP program. However, we did              identified in the Library’s General Support System (GSS)
find that the Library needs to improve its monitoring of       and Entity-Wide Security Program, which they classified
costs so that unallowable costs can be identified; improve     as reportable conditions. Specifically, they noted that
oversight of the NDIIPP partners’ non-federal match so         the Library had not fully implemented an Entity-Wide
that funds are released only with a valid non-federal match;   Security Program, and identified control weaknesses in
and formalize and fully implement draft procedures so that     the Library’s GSS that affected the availability, integrity,
the program’s performance is effectively monitored.            and confidentially of all applications and data residing
                                                               in the processing environment. During FY 2006, the
We intend to continue our examination of the NDIIPP in         Library completed the implementation of enhancements
the current semiannual period by reviewing in greater detail   addressing the above weaknesses. As a result, the auditors
financial information provided by the NDIIPP partners.         closed the prior years’ findings and no longer consider
                                                               weaknesses in controls over information technology (IT)
The Library generally agreed with our recommendations.
                                                               to be a reportable condition. The auditors noted that IT
Library of Congress                                            internal controls exist in a dynamic environment where new
Fiscal Year 2006 Financial Statements                          risks are constantly evolving; and consequently, continued
                                                               management commitment to an effective IT internal
Audit Report No. 2006-FN-503                                   control environment will be essential to ensure adequate
February 2007
                                                               protection in the new environment. We commend the
Kearney & Company audited the Library’s consolidated           Library on taking steps sufficient to eliminate its prior year
Balance Sheets as of September 30, 2006 and 2005; the          reportable conditions related to IT security.
related consolidated Statements of Net Costs, Changes
in Net Position, and Financing; and the Combined               • Compliance and Other Matters – Library management
Statements of Budgetary Resources for the fiscal years then    is responsible for complying with applicable laws and
ended. In the auditors’ opinion, the financial statements,     regulations. The auditors are responsible for testing
including the accompanying notes, present fairly in all        compliance with selected provisions of laws and regulations
material respects, the financial position of the Library and   that have a direct and material effect on the financial
its net costs, changes in net position, budgetary resources,   statements and certain other laws and regulations specified
and financing of operations in conformity with accounting      in OMB guidance. The auditors found no instances of
principles generally accepted in the United States.            noncompliance that are required to be reported under
                                                               Generally Accepted Government Auditing Standards
The auditors also performed tests of compliance with laws      (GAGAS). In prior years, the auditors had reported
and regulations; considered internal controls over financial   that the Library did not comply with the Congressional
reporting and compliance; and in a separate report,            Accountability Act of 1995, based on a safety investigation
examined management’s assertion about the effectiveness        conducted in January 2001 that identified numerous safety
of internal controls over safeguarding collections assets.     hazards in the Library’s three Capitol Hill buildings. Based
                                                               on the Library’s completion of efforts to mediate these
• Internal Controls Over Financial Reporting – The             hazards, the auditors cleared this item of noncompliance
auditors did not express an opinion on internal controls.      for FY 2006.



                                                                                    Semiannual Report to the Congress           5
        • Management’s Assertion About the Effectiveness of
      Internal Controls Over Safeguarding Collections Assets
      – Although the valuation of the collections of heritage
      assets is not reported in the Library’s balance sheet, the
      assets represent an important stewardship responsibility
      requiring a system of controls to ensure accountability. To
      this extent, the Library includes in its financial statements
      a stewardship report and makes an assertion about the
      effectiveness of the internal controls over collections
      assets.


      Management is responsible for establishing and maintaining
      the internal control structure for the collections.
      Management assessed the effectiveness of the Library’s
      internal control structure over safeguarding collections
      against unauthorized acquisition, use, or disposition based
      upon established control criteria. The auditors evaluated
      internal controls over collections assets by examining, on a
      test basis, evidence supporting management’s assertion and
      by performing such other procedures as they considered
      necessary. The auditors concluded that management fairly
      stated that: they cannot provide reasonable assurance that
      the internal control structure over safeguarding collections
      assets against unauthorized acquisition, use, or disposition
      was completely effective for all of the Library’s collections,
      and that management cannot assert that collections
      inventory controls are fully implemented during the in-
      processing and in-storage life cycles.




                                                                       Statue in the Great Hall, Thomas Jefferson Building




6   Semiannual Report to the Congress
James Madison Council Revolving Fund                         Peer Review of the National
Fiscal Year 2006 Financial Statements                        Endowment for the Arts OIG

Audit Report No. 2006-FN-503                                 Special Project No. 2007-SP-101
March 2007                                                   March 2007

The James Madison Council is an advisory body of             Offices of Inspectors General are required, as part
public-spirited individuals who contribute ideas,            of an overall quality control program, to undergo a
expertise, and financial support to promote the              peer review. The peer review, typically conducted by
Library’s collections and programs. The James                another OIG, consists of an in-depth review of the
Madison Council Fund (Fund) was established in               documented system of quality control, along with a
1989 to encourage contributions not only for current         rigorous examination of sample products.
programs, but for permanent endowments that will
impact the collections and programs in the future.           We conducted a peer review of the quality control
                                                             system of the National Endowment for the Arts
Under contract with the OIG, the accounting firm
                                                             Office of the Inspector General (NEA/OIG) audit
of Kearney & Company audited the Fund’s FY 2006
                                                             operations that was in effect for FY 2006. Elements
financial statements and issued its Independent
                                                             of the system included NEA/OIG’s organizational
Auditor’s Report. The audit included the Fund’s
                                                             structure and the policies and procedures the office
statement of financial position as of September 30,
                                                             established to perform its audit work. Our objective
2006, and the related statements of activities and
                                                             was to determine whether the system was designed
cash flows. The auditors concluded that the financial
                                                             to provide reasonable assurance that its application
statements were presented fairly in all material respects,
                                                             would result in work conforming to GAGAS
and in conformity with generally accepted accounting
                                                             promulgated by the U.S. Comptroller General. Based
principles. The auditors found no material weaknesses
                                                             on our evaluation and selective tests, we concluded
in internal controls over financial reporting, nor any
                                                             that NEA/OIG’s quality control system in effect for
instances of noncompliance with laws and regulations
                                                             FY 2006 was designed to meet GAGAS and that
that are required to be reported under GAGAS.
                                                             the office’s FY 2006 audit work conformed to the
For both the Library of Congress and Madison                 system. Accordingly, we believe there is reasonable
Fund financial statements audits, we performed the           assurance that NEA/OIG’s audit work in FY 2006
following steps to ensure the quality of the auditors’       conformed to applicable auditing standards, policies,
work:                                                        and procedures. We provided specific comments and
                                                             recommendations for enhancing the system to the
· reviewed Kearney’s approach                                NEA/OIG that did not affect our overall conclusions
  and planning of the audit,                                 about the system.
· reviewed significant audit working papers,
· evaluated the qualifications
  and independence of the auditors,
· monitored the progress of the audit at key points,
· coordinated meetings with Library management to
  discuss progress, findings, and recommendations,
· performed other procedures we
  deemed necessary, and
· reviewed and accepted Kearney’s audit report.



                                                                            Semiannual Report to the Congress        7
      Investigations

      During the reporting period we opened 24 and closed 33 investigations. We referred three cases to
      the U.S. Attorney’s Office: of those, two were declined and one was prosecuted. We recovered stolen
      property worth $2,000 and prevented the illegal sale of six National Library Service for the Blind and
      Physically Handicapped talking book players on eBay. Case and Hotline activity are detailed below:




       Table 1: 	Investigation Case Activity
                                      Criminal/Civil             Administrative                   Total
       Beginning of period                  12                        16                           28
       Opened                                 6                         18                          24
       Closed                                 9                         24                          33

       End of Period                          9                          10                         19




       Table 2: 	        Hotline Activity
                                                                        Count
       Allegations received                                               9
       Referred to management for action                                  5
       Opened as investigations                                           2
       Closed with no action                                              2




8   Semiannual Report to the Congress
Significant Criminal and                                           Conflict of Interest
Administrative Investigations
                                                                   The OIG received information that a Library procurement
Theft from Loading Dock                                            officer may have improperly steered contracts to his son’s
                                                                   employer. OIG special agents found that the employee
A Library contractor observed and reported a Library
                                                                   had initiated several such procurements totaling about
employee attempting to sell Library property at a local
                                                                   $75,000. This conduct created at least the appearance of
recycling yard. An OIG special agent determined that
                                                                   a conflict of interest, impartiality, and misuse of position.
the employee had removed 2,000 pounds of coaxial cable,
                                                                   The OIG referred evidence in the case to management
valued at $1,200, from a Library loading dock. The
                                                                   for appropriate action. The employee retired before any
special agent (1) recovered the property, (2) obtained an
                                                                   management action was taken.
arrest warrant charging the employee with First Degree
Theft, and (3) facilitated the employee’s arrest. To avoid
                                                                   Contractor Employment
a criminal trial, the employee accepted a court-approved           Eligibility Verification Compliance
agreement requiring 40 hours of community service and
probation. Administrative action is pending.                       The OIG initiated a review of Library contractors to
                                                                   determine compliance with the Immigration Nationality
Financial Disclosure/Ethics                                        Act and Federal Acquisition Regulation requirements for
                                                                   foreign nationals hired by federal contractors. The OIG
An OIG special agent and our independent counsel                   worked with the Department of Homeland Security,
conducted an inquiry into the Library’s policy and                 Immigration and Customs Enforcement agency (ICE)
procedures for annually reviewing and certifying Financial         whose mission is to prevent illegal aliens and people
Disclosure Statements. We found that substantive conflict          working under assumed identities from gaining access
of interest reviews were not conducted for the 2005 and            to critical infrastructure sectors. ICE conducted an I-9
2006 submissions, and as a result, the Library was not in          Employment Eligibility Verification form audit of a Library
full compliance with Section 106(b) of Title I of the Ethics       contractor whose employees have access to many areas
in Government Act of 1978. The technical reviews did               within the Library complex. The audit disclosed technical
not look beyond the face of the form at content for any            and procedural violations on some of the I-9 forms. These
nexus between a filer’s financial interests and his/her official   findings, in connection with other allegations disclosed
duties and work assignments.                                       in the OIG review, were referred to the federal entity that
                                                                   oversees compliance with these rules and regulations.
The OIG recommended that the Library’s General Counsel
(1) review existing Library policy and procedures and make         Theft of Copper Tubing at Landover Warehouse
appropriate revisions to enhance the quality and rigor of the
annual Financial Disclosure Statement reviews, (2) ensure          The Library’s Office of Security & Emergency Preparedness
that its conflict of interest reviews are in full compliance       (OSEP) alerted the OIG to the theft of copper tubing from
with the law, and (3) provide greater assurance that Library       nine rooftop air conditioning units at the Library’s Landover
filers are complying with laws relating to financial disclosure    warehouse facility, which rendered them inoperable and
and conflict of interest.                                          caused an estimated $152,000 in damages. The OIG
                                                                   reiterated prior recommendations that OSEP upgrade
We asked the General Counsel for an action plan within 30          malfunctioning security equipment and that additional
days. We will report on the status of this issue in our next       security equipment be installed.       OSEP and Library
Semiannual Report.                                                 management are currently working to improve perimeter
                                                                   security. The Library’s collections were not damaged. Our
                                                                   investigation is ongoing.


                                                                                        Semiannual Report to the Congress          9
      Internet Credit Card Scheme                             Stolen Laptop Recovered

      The OIG acted on a complaint from Retail Marketing      A U.S. Department of Agriculture employee
      Office staff that foreign nationals were using stolen   reported finding a laptop computer with a Library
      credit card numbers to order merchandise for            bar code on the grounds of his office complex in
      shipment to invalid U.S. addresses (never intending     Greenbelt, Maryland. OIG staff recovered the
      to complete the transaction). The objective of this     laptop and determined that it had been stolen from a
      scheme is to identify and sell valid card numbers.      Library employee’s nearby residence months earlier.
      The invalid shipping address is the marker for          The OIG returned the computer to the Library.
      this scheme. The OIG explained the scheme and
      recommended internal controls to Retail Marketing       Proactive Initiatives
      Office staff and other Library offices that accept
      credit card orders.                                     We continue to monitor the Internet for stolen
                                                              Library property. During this reporting period, we
      Workers’ Compensation                                   found six talking book cassette players issued by the
                                                              Library for sale on eBay. The sellers were contacted
      A Library police officer complained that his claim      and directed to return the items.
      for a job-related injury was improperly processed.
      The officer had reported injuries he sustained on       The OIG is collaborating with the Library’s
      Library property as he traveled to work. An OIG         Information Technology Services unit to explore
      investigator determined that the supervisor failed to   the use of filtering software to identify web traffic
      submit the officer’s claim as required by 5 U.S.C.,     involving child pornography. This is an ongoing
      Subpart G, Chapter 81 § 8120, and 18 U.S.C.             initiative.
      § 1922, which provide a criminal penalty for
      falsifying or withholding reports concerning federal
      employee injury claims. The OIG investigator
      also determined that the Library’s Health Services
      Office, which administers the Library’s Workers’
      Compensation Program, had submitted the officer’s
      medical information without the required forms,
      resulting in the Department of Labor denying the
      claim.


      The Health Services Office successfully resubmitted
      the claim, which resulted in the restoration of 200
      hours of the officer’s sick leave.




10 Semiannual Report to the Congress
Ceiling of the Great Hall, Thomas Jefferson Building




                                                       Semiannual Report to the Congress   11
      OIG Law Enforcement                                              investigative urgency, and over which the Library has little
      Authority Challenged                                             control, may also impede investigations. Additionally, the
                                                                       FBI has a very high workload and, consequently, threshold
      The Library’s General Counsel opined in October 2006             for involvement in criminal cases, and has often declined
      that OIG special agents are not authorized to carry firearms.    assistance to the Library.
      The General Counsel stated that the Library of Congress
      Inspector General Act of 2005 (the Act) as promulgated           • The Library’s Director of Security and Emergency
      under Public Law 109-55, intentionally excluded a                Preparedness believes that the Library’s collections security
      reference to the Inspector General Act of 1978, as amended,      program would be significantly less effective if we were
      that bestows specific law enforcement authority on certain       unable to quickly respond to collections thefts, especially
      Inspectors General, inferring that the exclusion means that      if it involved a time-critical search outside the jurisdiction
      the Congress did not intend the Library’s Inspector General      of the Capitol Police. The Librarian also shares this view.
      to have law enforcement authority.                               Given its unique needs, it is in the Library’s best interest
                                                                       for the OIG to continue receiving special deputation from
      We disagreed with the General Counsel’s conclusion.              the U.S. Marshals Service and exercising law enforcement
      The specific reference was excluded from our Act because         authority.
      it applies only to Inspectors General appointed by the
      President. Our position was documented in a December 8,          Subsequent to our memorandum, the GAO concluded
      2006 memorandum to the Librarian which was also shared           that there are no legal issues that preclude our agents from
      with House and Senate Appropriations Committee staff.            exercising law enforcement authority and carrying firearms.
      The major points in our memorandum are as follows:               This legal view is also shared by other independent counsels
                                                                       whom we consulted.
      • For the past ten years, our special agents (who are trained
      law enforcement officers) have exercised law enforcement         After obtaining our independent legal opinions on
      authority on an as-needed basis through special deputation       this issue, we sought and obtained the approval of the
      from the U.S. Marshals Service, which also provides the          appropriators from both houses of Congress to continue
      underlying authority to make arrests and execute search          our law enforcement activities.
      warrants. Law enforcement authority is necessary to
      effectively and efficiently carry out OIG investigative
      responsibilities under the Act. Many criminal investigations
      pursued by our special agents have a potential for violence,
      including cases involving theft, embezzlement, drug
      offenses, and fraud. In pursuing these cases, our agents
      have conducted surveillance and interviews in high-crime
      neighborhoods, searched residences, and made arrests. The
      agents carried weapons because they were at risk.


      • The alternative is to rely on the U.S. Capitol Police, the
      FBI, or another Office of Inspector General. Inspectors
      General were created because of the need for independence
      in evaluating agency activities. Reliance on an outside
      party that may not share the Library’s priorities and sense of




12 Semiannual Report to the Congress
Follow-Up on Prior Period Recommendations


Effecting positive management change in Library
programs and activities requires a four-phase approach: (1)
identifying areas that could benefit from OIG reviews, and
planning audits, (2) conducting audits and reporting the
results, (3) obtaining agreement from Library managers to
take action to resolve recommendations, and (4) following
up to determine that implementation has occurred.
Significant recommendations from previous semiannual
reports on which corrective action has not been completed
are contained in Table 3A on page 14.


No audits or other projects were due for formal follow-up
reviews in this reporting period.


We are pleased to report, in table 3B on pages 15 and 16, a
complete listing of recommendations on which the Library
took action in this semiannual period. As a result, we now
consider those recommendations implemented.




                                                              Semiannual Report to the Congress   13
  Unimplemented Recommendations

   Table 3A: 	Significant Recommendations from Previous Semiannual
               Reports for Which Corrective Action Has Not Been Completed
                              Report No. and
          Subject                                   Service Unit      Rec. No.             Summary of Recommendations
                                Issue Date
   Office of the Librarian
                                                      Office of                    Revise LCR 2020-7 to allow complainants to
   Dispute                      2002-PA-104
                                                      Workforce           III      use dispute resolution during the formal EEO
   Resolution Center           September 2003
                                                      Diversity                    complaint process.
                                                      Operations
                                2001-PA-105
   Learning at the Library                           Management           I.G      Provide training to new supervisors.1
                                 April 2003
                                                     and Training
   Equal Employment                                   Office of
                                2001-PA-104
   Opportunity                                        Workforce            I       Evaluate and revise LCR 2010-3.1.2
                               February 2003
   Complaints Office                                  Diversity
                                                                                   Mandate a Library-wide succession planning
                                2004-PA-105          Office of the
   Succession Planning                                                    I.1      program that endows Human Resources
                                March 2005            Librarian
                                                                                   Services with a strong leadership role.

   Office of the Chief Financial Officer
   Management                   2004-PA-106           Strategic
                                                                          II       Implement an automated tracking system.
   Control Program              March 2006         Planning Office
   Management                   2004-PA-106           Strategic
                                                                          III      Implement a verification review process.
   Control Program              March 2006         Planning Office
   Management                   2004-PA-106           Strategic
                                                                          V        Report implementation delays to the Librarian.
   Control Program              March 2006         Planning Office
   Office of Security and Emergency Preparedness
                                2003-PA-105
   Management of Police                                 OSEP              53       Engage in a greater level of strategic planning.
                                August 2004
   Emergency                    2005-PA-104
                                                        OSEP              III      Develop or obtain a threat/risk assessment.
   Preparedness Program         March 2006
   Library Services
   Utilization of               2003-PA-104                                        Develop a decision model for determining
                                                   Library Services      II.1
   Reading Rooms                March 2004                                         reading room space requirements.
   Utilization of               2003-PA-104                                        Use the model to make decisions about reading
                                                   Library Services      II.2
   Reading Rooms                March 2004                                         rooms, office space, and storage requirements.




  1
    The Library has implemented a new training program for new supervisors. Included are online training courses and instructor-led
  training. Due to budgetary constraints, the instructor-led portion has been delayed until later in FY 2007. Once fully implemented,
  this program will satisfy the intent of our recommendation.
  2
    LCR 2010-3.1 is currently being revised.


14 Semiannual Report to the Congress
Implemented Recommendations

Table 3B: 	Significant Recommendations from Previous Semiannual Reports
            For Which Corrective Action Was Completed During This Period
                            Report No. and
        Subject                                Service Unit      Rec. No.   Summary of Recommendations and Actions
                              Issue Date
Office of the Librarian
                                                 Contracts                  ERC did not comply with three grant provisions.
Telecommunications            2006-FN-205
                                                and Grants          I       In this period, ERC took action to comply with
Grant                        September 2006
                                                Management                  these provisions.
                                                 Contracts                  ERC lacked policies and procedures. In this
Telecommunications            2006-FN-205
                                                and Grants          II      period, ERC implemented key policies and
Grant                        September 2006
                                                Management                  procedures.

Integrated Support Services

Inventory and                                                               Reevaluate space needs for the future warehouse
                                 2004-PA-103
Equipment                                           ISS            I.2      planned at Ft. Meade. ISS peformed an analysis
                                 March 2005
Management                                                                  of space needs.
                                 2005-PA-101                                Document policies and procedures. ISS
Transportation Services                             ISS            I.B
                                 March 2005                                 implemented a policies and procedures manual.
                                                                            Logistics must improve physical accountability
Landover Warehouse               2006-AT-904
                                                    ISS             I       of inventory. In this period, ISS took significant
Internal Controls                 June 2006
                                                                            steps to improve accountability.
                                                                            Security measures did not sufficiently address
Landover Warehouse               2006-AT-904
                                                    ISS             II      the threat of employee theft. ISS took steps to
Internal Controls                 June 2006
                                                                            remedy this situation.
                                                                            Better separation of duties and reconciliations
Landover Warehouse               2006-AT-904
                                                    ISS            III      needed in the shipping and receiving functions.
Internal Controls                 June 2006
                                                                            ISS took steps to address needed controls.
                                                                            Greater separation of duties needed in the
Landover Warehouse               2006-AT-904
                                                    ISS             I       computer learning program. ISS took steps to
Internal Controls                 June 2006
                                                                            introduce needed controls.

Office of the Chief Financial Officer

                                                                            Revise the MCP process to better identify
Management                       2004-PA-106      Strategic                 control weaknesses. Pursuant to our
                                                                    I
Control Program                  March 2006    Planning Office              recommendation, the MCP now requires an
                                                                            explanation for every rating.
                                                                            Improve the MCP communications mechanism.
Management                       2004-PA-106      Strategic
                                                                   IV       OCFO completed its SOP manual for the MCP
Control Program                  March 2006    Planning Office
                                                                            and the LCR and directive are being revised.

Office of Strategic Initatives

                                                                            Improve security in the General Support Systems
Financial Statements             2005-FN-502                                and implement entity-wide IT security program.
                                                    ITS           1&2
Audit - FY2005                    May 2006                                  The Library made a concerted – and successful
                                                                            – effort to implement both recommendations.




                                                                                    Semiannual Report to the Congress            15
      Table 3B: 	Significant Recommendations from Previous Semiannual Reports
                  For Which Corrective Action Was Completed During This Period
                                Report No. and
             Subject                                  Service Unit       Rec. No.   Summary of Recommendations and Actions
                                  Issue Date
      Office of Security and Emergency Preparedness
                                 2003-PA-105                                        Develop a mission statement. Recommendation
      Management of Police                               OSEP              543
                                 August 2004                                        closed.
                                                                                    Develop a regulation for the program. LCR
      Emergency                  2005-PA-104
                                                         OSEP               I       211-3 was revised to accomplish intent of
      Preparedness Program       March 2006
                                                                                    recommendation.
      Emergency                  2005-PA-104                                        Develop an annual training plan.
                                                         OSEP              VI
      Preparedness Program       March 2006                                         Recommendation closed.
                                                                                    Improve communications and training for
      Emergency                  2005-PA-104
                                                         OSEP              VII      disabled staff and monitors. OSEP took steps to
      Preparedness Program       March 2006
                                                                                    address this recommendation.
                                                                                    Develop an MOU with the Capitol Police.
      Emergency                  2005-PA-104                                        OSEP implemented an MOU and legislation
                                                         OSEP              VIII
      Preparedness Program       March 2006                                         was passed satisfying the intent of this
                                                                                    recommendation.
      Emergency                  2005-PA-104                                        Develop an MOU with the AOC.
                                                         OSEP              IX
      Preparedness Program       March 2006                                         Recommendation closed.



   The term “recommendation closed” indicates that circumstances have rendered a recommendation impractical or unnecessary to
  implement, or that management has taken alternative actions sufficient to fulfill the intent of the recommendation.




  3
      Recommendation number refers to an external consultant’s report.




16 Semiannual Report to the Congress
The Great Hall, Thomas Jefferson Building




                                            Semiannual Report to the Congress   17
   Funds Questioned or Put to Better Use
    Table 4:	          Audits with Recommendations for Better Uses of Funds
    Reports...                                                                          Number   Value
    …for which no management decision was made by the start of the period.                -        -

    …issued during the period.                                                            -        -
                                                                             Subtotal     -        -
    …for which a management decision was made during the reporting period:

            Value of recommendations agreed to by management.                             -        -

            Value of recommendations not agreed to by management.                         -        -

    …for which no management decision was made by the end of the reporting period.        -        -

    …for which no management decision was made within six months of issuance.             -        -



    Table 5:	          Audits with Questioned Costs
    Reports...                                                                          Number   Value
    …for which no management decision was made by the start of the period.                -        -
    …issued during the period.                                                            -        -
                                                                             Subtotal     -        -
    …for which a management decision was made during the reporting period:

                 Value of recommendations agreed to by management.                        -        -

                 Value of recommendations not agreed to by management.                    -        -


    …for which no management decision was made by the end of the reporting period.        -        -

    …for which no management decision was made within six months of issuance.
                                                                                          -        -




18 Semiannual Report to the Congress
Instances Where Information or
Assistance Requests Were Refused
There were no instances during the period concerning the Library’s unreasonable refusal to provide
information or assistance, or any other refusal from a federal, state, or local government agency.



Status of Recommendations
Without Management Decisions
During the reporting period there were no recommendations more than six months old without management
decisions.



Significant Revised Management Decisions
During the reporting period there were no significant revised management decisions.




Significant Management Decisions
with which OIG Disagrees

In Audit Report No. 2004-FN-501, Performance Based Budgeting (PBB) at the Library: A Good Start,
but Much Work Remains, October 2006, we reported that Library of Congress Regulation (LCR)
1511, Planning, Budgeting, and Program Performance Assessment, lacks certain key features we believe
are necessary for guiding the PBB process. Those features include designating an Administrative
Officer in charge of the PBB process and adding best practices such as exempting areas from PBB
methodology where appropriate, addressing duplications in programs and services, conducting
external environmental assessments to identify factors that may affect performance goals, publishing
comprehensive PBB terminology, and establishing a minimum required frequency for conducting
program performance evaluations.


The Library’s Chief Financial Officer (CFO) disagreed with our recommendation about designating
an Administrative Officer, asserting that “LCR 1511 clearly establishes the roles and responsibilities
that define key areas of authority and responsibility, establishes appropriate lines of reporting, and
establishes a minimum required frequency for reporting on program performance.” The Library’s
Audit Resolution Official (the Chief Operating Officer) concurred with the CFO.


The Library is successfully completing the process of revamping its strategic planning process and has
established an implementation framework for program evaluation. While we acknowledge that the
Library has made significant progress under the current revised policy, we believe that implementing
our recommendations will significantly strengthen the program and ensure the process survives any
changes in key personnel or in management emphasis. This is especially important when making hard
choices among competing institutional interests.



                                                                                   Semiannual Report to the Congress   19
      Other Activities

      Participation in the ECIE                                      We received a “clean” opinion and the peer review report
                                                                     was complimentary of the professionalism and expertise of
      During the semiannual period, we were invited to begin         OIG staff, and of our policy and procedures. There were
      attending Executive Council on Integrity and Efficiency        no recommendations for improvement. This is the highest
      (ECIE) meetings. The ECIE is primarily composed of             quality rating the OIG has ever received.
      the 34 statutory executive branch Inspectors General
      that are appointed by the agency heads. The ECIE is            Legislative Branch OIG “Council”
      complementary to the President’s Council on Integrity
      and Efficiency, primarily composed of 30 Inspectors            November 2006
      General nominated by the President and confirmed by the
      Senate. Both Councils contain members from the Office          Inspired by FY 2006 Senate Appropriations language calling
      of Management and Budget (OMB), the FBI, the Office            for communication and coordination among the OIGs,
      of Government Ethics, the Office of Special Counsel, and       our office organized and hosted the first-ever meeting of
      the Office of Personnel Management. The Councils are           legislative branch Inspectors General. These, in addition
      led by the Deputy OMB Director for Management, and a           to the Library of Congress, include the Government
      Vice-Chair (one of the Inspectors General) who manages         Printing Office, U.S. House of Representatives, Architect
      the Councils’ daily activities.                                of the Capitol, Government Accountability Office, and
                                                                     U.S. Capitol Police. Collaboration is being planned for
      Although these Councils were established for the Executive     training, leveraging staff expertise, problem solving, and
      Branch, we benefit from the meetings by keeping abreast        other topics. The Inspectors General have agreed to hold
      of developing audit and investigative issues and techniques,   quarterly meetings in the future.
      legislative developments, and a variety of other information
      relevant to our statutory responsibility and authority. We
                                                                     Digital Talking Book Project
      participate in ECIE activities, but generally do not respond
                                                                     Special Project
      to data calls concerning criteria not applicable to the        February 2007
      Legislative Branch.
                                                                     We recently provided assistance to the National Library
      Peer Review of the Library’s OIG                               Service for the Blind and Physically Handicapped
                                                                     (NLS). In FY 2003, NLS embarked on a multi-year
      February 2006                                                  project to replace its aging cassette-book machine with
                                                                     a digital equivalent. We became familiar with the NLS
      In cooperation with the ECIE, our audit operations             project through our ongoing involvement with NLS and
      were peer reviewed during this year by the Federal Trade       specifically, a survey we performed in 2006 on the project’s
      Commission Inspector General. Peer reviews are required        overall progress. At the time, we reported that although
      by Government Auditing Standards every three years to          NLS had not rigorously followed government acquisition
      ensure that audits and related reviews are governed by an      and project planning criteria, the process had resulted in
      adequate internal quality control system, and that quality     a valid end product, and made some recommendations
      control policies and procedures are being complied with to     for specific steps NLS should take to more closely follow
      provide reasonable assurance of conforming to applicable       project-planning standards.
      professional auditing standards.
                                                                     In October 2006, the Government Accountability Office
                                                                     (GAO) was asked by Congress to evaluate NLS’ planning



20 Semiannual Report to the Congress
process. GAO’s report also concluded that NLS had                 overcrowded conditions and double stacking of materials),
not rigorously followed project-planning standards, and           and continuing the Baseline Inventory Program (to ensure
questioned NLS’ choice of technology. The report made             books are accurately labeled and shelved, and in agreement
some far-reaching recommendations.                                with the corresponding inventory record).


NLS was tasked with assessing and proposing the                   Notwithstanding these positive steps, we made two
Library’s response to GAO’s draft report on its talking           recommendations to improve CALM’s service. First,
book technology modernization project. We agreed                  we recommended that CALM collect and make use of
to provide advice for the Library’s response to facilitate        automated book retrieval statistics to more objectively
communication between the Library and GAO. NLS                    evaluate the timeliness of its service. Second, we
sought our assistance out of concern that GAO had not             recommended that Library Services’ management place a
acquired an adequate understanding of the modernization           high priority on resolving the issues preventing the public
project’s accomplishments during its review. Moreover,            from using the Library’s ILS call slip module to request
NLS recognized that we were familiar with the project and         collection materials. The current system of handwritten
with GAO standards for performing program reviews.                call slips that the public uses to request items is, by default,
                                                                  slower than the automated system, and more prone to
Researcher Access to Collections                                  errors of both spelling (by the requestor) and interpretation
                                                                  (by the deck attendant attempting to read the call slip).
Audit Survey Report No. 2007-PA-101
March 2007
                                                                  FEDLINK System Replacement Project

The Collections, Access, Loan, and Management Division            Special Project
(CALM) of Library Services is the Library’s primary               January 2007
retrieval service for books and other library materials from
the general collections. CALM responds to approximately           The Library’s efforts in fostering excellence in federal
2,000 retrieval requests each workday. We performed a             libraries and information services are guided by the Federal
survey of CALM’s material retrieval service to determine          Library and Information Center Committee (FLICC). The
if CALM efficiently and effectively responds to requests          Federal Library and Information Network (FEDLINK) is
to retrieve collection items. We did not become aware             the cooperative program of FLICC designed to serve its
of any material weaknesses in CALM’s operations during            constituents as their purchasing, training, and resource-
our survey, and concluded that further audit work was not         sharing consortium. Through FEDLINK, participants
necessary.                                                        have cost-effective access to various sources of information
                                                                  and mission-related support services.
Our survey assessment indicated that CALM is providing
timely and accurate retrieval service, especially considering     FEDLINK currently depends on SYMIN – an aging
the volume of material it handles and the size of the Library’s   proprietary financial management system built using the
general collections. Although about 17 percent of materials       DOS-based Paradox database program. SYMIN interfaces
requested could not be found, most of these instances did         with the Library’s state-of-the-art Momentum Financial
not appear to be attributable to process or internal control      System, passing transaction data to Momentum. Library
failures. Further, we noted that CALM is taking several           management is concerned about SYMIN’s future stability
actions to improve its service, such as outsourcing certain       and viability, and is interested in exploring options for
functions, enhancing its quality assurance procedures,            replacing or improving it.
shifting less-used materials to offsite storage (to relieve



                                                                                         Semiannual Report to the Congress           21
      The Library’s Office of the Chief Financial Officer
      (OCFO) requested guidance from our office in developing
      requirements for a cost-benefit analysis for replacing or
      maintaining the FEDLINK system. OIG responded by
      providing guidance and assistance to OCFO for a statement
      of work supporting its request for a quotation.

      Center for Research Libraries Project

      Special Project
      February 2007

      In this semiannual period, we concluded our advisory
      role on the 18-month project funded by the Andrew F.
      Mellon Foundation to formulate and model the processes
      and activities required to audit and certify digital archives.
      The project started in May 2005 and finished in 2006,
      culminating in the February 2007 report “Trustworthy
      Repositories Audit & Certification: Criteria and Checklist.”
      The Center for Research Libraries, a consortium of 200
      North American research libraries and universities,
      published the report based on evolving efforts over the
      past several years involving the Research Libraries Group,
      Online Computer Library Center, and the National
      Archives and Records Administration.




22 Semiannual Report to the Congress
Review of Legislation and Regulations	
Table 6A:                  Review of Library of Congress Regulations
      LCR Reviewed                              Comments by the Office of The Inspector General

211-6                           We rewrote in 2006 the Library of Congress Regulation, Functions, Authority, and
Functions, Authority,           Responsibility of the Inspector General, which governs our operations. We based the
and Responsibility of the       regulation on the Library of Congress Inspector General Act of 2005, Public Law 109-55,
Inspector General               August 2005. The regulation was published December 4, 2006.

2015-22
Leave Accrual – Granting
Service Credit for Non-         We had no comments on this proposed regulation.
federal Service Toward
Service Computation Date

2101
Delegations of Authority
                                We had no comments on this proposed regulation.
to Sign Agreements and
Procurement Contracts

2140
                                We had no comments on this proposed regulation.
Miscellaneous Delegations

110                             In accordance with the Library of Congress Inspector General Act of 2005, we revised
Library of Congress             language in this LCR to formalize our responsibility to review and comment on all new
Regulations and Special         and revised regulations before they are finalized to determine their likely impact on the
Announcements                   effectiveness and efficiency of the Library’s programs and activities.

210-2
Responsibility for
Proposals of Functional
                                Based on the revision of LCR 211-6, above, a section will be inserted into this LCR
and Organizational
                                authorizing the Inspector General to provide final approval of all personnel actions within
Changes in the Library, and
                                the OIG including organizational changes.
Procedures to be Followed
in Connection With Such
Proposals




                                                                                       Semiannual Report to the Congress      23
      Table 6B:                 Review of Legislation
            Item Reviewed                           Comments by the Office of The Inspector General

                                     We submitted joint comments with other legislative branch OIGs to the ECIE
                                     Legislative Committee. We supported provisions clarifying that OIG administrative
                                     subpoena power applies to data in any medium, and recommended that the provisions
                                     extending Program Fraud Civil Remedies Act authority to designated federal entities
                                     (DFE) be extended to legislative branch agencies. The legislative branch Inspectors
      S. 680, Title II,
                                     General supported the provision in S. 680 for advance congressional notification before
      Inspectors General Reforms
                                     removing Inspectors General, and the provisions in H.R. 928 permitting removal of
                                     Inspectors General only for cause and establishing a seven year term of office. H.R. 928
      H.R. 928, Sections 1-7,
                                     also provides for the establishment of a statutory Council of the Inspectors General on
      Improving Government
                                     Integrity and Efficiency; we recommended the inclusion of legislative branch OIGs on
      Accountability Act
                                     the Council. We agreed with a provision extending statutory law enforcement authority
                                     to DFEs and recommended including the Inspectors General of the Government
                                     Printing Office, the U.S. Capitol Police, and the Library of Congress in its coverage.
                                     S. 680 would also eliminate bonuses and set pay levels for Inspectors General. H.R.
                                     928 would add a mechanism to handle complaints about Inspectors General.




24 Semiannual Report to the Congress
